                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                        CLOSEOUT MEMORANDUM

Case Number: 1-02030010                                                                  Page 1 of 1
                                                                                                I/




     On 22 March 2002, our office received an anonymous Hotline call alleging fraud-andmisuse of NSF
     grant funds by [redacted] (subject), a professor at [redacted] and Principal Investigator on NSF grant
     [redacted]. According to the anonymous complainant, the subject spent NSF grant funds building a
     log cabin. The anonymous complainant provided no additional information or evidence to & ~ ~ ~: o r t
     this allegation.

     The subject submitted proposal [redacted] to NSF's Division of Environmental Biology on 23
     February 1999, requesting $767,597 for a 3 year project on [redacted]. After a subsequent revision, , .-
     the subject lowered the funding request to $700,000. The Division of Environmental ~ i o l o ~ ~
     granted this proposal as 3 year continuing award on 1 July 1999. According to the budget and
     budget justification, NSF funding will provide for full time suppoq travel, supplies and some capital
     equipment. The proposal does not include any reference to building a log cabin. ~ c c o h i to     n~
     NSF's Federal Cash Transaction Reports (FCTR), the subject spent $606,544.15 as of 31 March
     2002, leaving $36,136.66 in unobligated funds. The FCTR does not itemize expenses.          3b




                                                                                                                I
     As the proposal does not include any reference to the construction of a log cabin, there is no        -
     indication of any impropriety from NSF staff or reviewers, and the anonymous complainant did not
     provide any evidence to support this allegation, there is insufficient information to warrant any
     further investigation. Accordingly, this case is closed and no further action will be taken by this   ,.
